<html>
<title> - RUSSIAN ENGAGEMENT IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       RUSSIAN ENGAGEMENT IN THE 
                           WESTERN HEMISPHERE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-110

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-266PDF                     WASHINGTON : 2015                        
                                 
_______________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida<greek-l>        ALAN S. LOWENTHAL, California
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Doug Farah, President, IBI Consultants.......................     4
Vladimir Rouvinski, Ph.D., Director of the CIES Interdisciplinary 
  Research Center, Universidad Icesi in Colombia.................    18
Constantino Urcuyo, Ph.D., Academic Director, Centro de 
  Investigacion y Adiestramiento Politico Administrativo in Costa 
  Rica...........................................................    26
Diana Villiers Negroponte, Ph.D., Public Policy Scholar, Woodrow 
  Wilson International Center for Scholars.......................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Doug Farah: Prepared statement...............................     7
Vladimir Rouvinski, Ph.D.: Prepared statement....................    20
Constantino Urcuyo, Ph.D.: Prepared statement....................    28
Diana Villiers Negroponte, Ph.D.: Prepared statement.............    38

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Material submitted for the record    56

 
              RUSSIAN ENGAGEMENT IN THE WESTERN HEMISPHERE

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order. I now would like to recognize myself for an 
opening statement.
    This subcommittee hearing is the third in a series of 
hearings that we have held to examine the presence and 
activities of certain countries operating here in the Western 
Hemisphere. In February, we looked at Iran and Hezbollah's 
presence in the region, the failure of the State Department to 
prioritize these actors in view of a potential Iran nuclear 
deal and the limited U.S. intelligence capabilities focused on 
these issues.
    In July, we examined China's extensive engagement with the 
region through trade and the investment of hundreds of billions 
of dollars, energy cooperation, infrastructure projects and a 
range of security activities including satellite cooperation, 
arms sales, and military exchanges.
    So today we will meet to consider Russia's engagement in 
Latin America and Caribbean. Following the Cold War, Russia 
began taking more of a pronounced interest in the region 
especially during the 2008 crisis in Georgia. When the U.S. 
responded to Russia's aggression in Georgia by sending naval 
forces to the Black Sea, Russia deployed nuclear-capable 
bombers to the Caribbean and a four-ship naval flotilla to 
conduct military exercises with the Venezuelan navy and make 
port calls in Cuba and Nicaragua.
    Let there be light.
    Russia also stepped up its diplomatic outreach with a visit 
to the region from then-President Medvedev, and subsequent 
visits from the Presidents of Venezuela, Nicaragua, Bolivia and 
Ecuador to Moscow. Following Russia's invasion of the Ukraine 
in 2014, Russia again ushered in another wave of military and 
diplomatic activities with particular emphasis on anti-American 
and undemocratic countries, those with close proximity to U.S. 
borders, or those with unique capabilities of interest to 
Russia.
    Last year proved a very eventful year for Russia in the 
Western Hemisphere. Reportedly, Russia began talks on 
Nicaragua, Cuba and Venezuela about establishing bases for 
resupplying Russian warships and potentially refueling Russian 
long-range bombers. In April, the U.S. observed two Russian 
ships operating in waters close to Cuba near the U.S. naval 
station in Mayport, Florida. That same month, the Russian 
foreign minister visited Nicaragua, Cuba, Peru and Chile.
    In June, NORAD reported it had scrambled two F-22s and two 
F-15s after seeing a fleet of Russian bombers off the coast of 
Alaska and California. In July, Russian President Putin 
traveled in the region to visit Cuba, Nicaragua, Argentina and 
Brazil. At that time, Russia forgave 90 percent of Cuba's debt, 
and reportedly Russia and Cuba agreed to reopen the Lourdes 
base only 150 miles from the United States coast.
    End of September, U.S. intercepted Russia fighter jets and 
tankers in airspace near Alaska, and just in November of last 
year, Russia announced that it had planned to send its long-
range bombers to the Gulf of Mexico and the Caribbean. The 
United States did very little in response to all these 
developments.
    Subsequently, this past January, Russia sent a ship to Cuba 
on the eve of Assistant Secretary Roberta Jacobsen's visit. 
This was followed by a visit from the Russian foreign minister 
to Cuba, Nicaragua and Venezuela in February, and a visit from 
the Russian defense minister to Cuba, Colombia, Nicaragua and 
Guatemala in March.
    Most recently, as Russia has deepened its military efforts 
in Syria, reportedly Cuban troops have been sent to Syria to 
operate Russian tanks. Such Russian overreach in its own 
region, in the Middle East, and now in the Western Hemisphere 
does not send a positive message to the United States and our 
freedom-loving allies. Indeed, in view of Russia's aggression 
in its own neighborhood, violations of arms control treaties, 
cyberattacks on U.S. infrastructure, and continued partnerships 
with Iran, Syria, Cuba and Venezuela, Russian actions do not 
signal an interest in peace nor of global stability.
    In the Western Hemisphere, Russia's engagement appears 
driven primarily by geopolitical and security considerations 
rather than solely economic interest. After all, in 2013, 
Russia's bilateral trade with the region was only $18 billion, 
14 times less than China's trade with the region.
    In contrast, from 2001 to 2013, Russia sold Latin America 
almost $15 billion in arms which amounts to 40 percent of the 
arms purchased by the region from external actors. Similarly, 
from 2008 to 2011, Russia sold more than 3,000 surface-to-air 
missiles to the region, and multiple countries also have 
Russian helicopters.
    Beyond arms sales Russia has sought positions of influence. 
Reportedly, Ecuador, Nicaragua, Bolivia and Argentina have all 
granted Russia access to their airspace and ports. Russia's 
only transoceanic shipping line to South America runs from 
Russia to Ecuador, and multiple countries have agreed to or are 
considering participating in Russia's GLONASS satellite 
navigation system. Furthermore, Russia seems to have 
prioritized relations with countries close to U.S. borders. 
Russia has provided armored vehicles, aircraft missiles and 
helicopters to Mexico, and assistance in Mexico's fight against 
criminal organizations.
    Several of El Salvador's leaders received training in the 
Soviet Union, and Nicaragua has agreed to host a new Russian 
counterdrug center, Russian munitions disposal plant, and a 130 
Russian counternarcotics trainers who conduct joint patrols 
with the Nicaraguans. In addition, Russia has cultivated a 
strategic alliance with Brazil and a strategic partnership with 
Argentina as Russia's top two trading partners. Furthermore, 
Russian engagement in Peru has resulted in strong military ties 
with that country, counterdrug cooperation, and reportedly the 
planning and executing of joint strategic operations.
    Today, Venezuela remains a key linchpin for Russia activity 
in Latin America, and in return Russia has provided Venezuela 
with arms sales, a $2 billion loan, and energy cooperation in 
the Orinoco River Basin.
    In conclusion, Russia's engagement in the Western 
Hemisphere is deeply troubling. At a time when Russia is 
flexing its geopolitical muscles in other parts of the world, 
its power projection in our very region should be met with U.S. 
strength, resilience and clarity. In 2009, President Putin 
called cooperation with Latin American states one of the key 
and very promising lines of Russian foreign policy. The United 
States should recognize this and adapt accordingly in our 
response.
    So I will look forward to hearing from the expert panelists 
on this topic. And I want to just emphasize that this is just a 
series of hearings that we are having focused on not only the 
involvement of other countries in this hemisphere, but I want 
to emphasize the lack of U.S. engagement in this hemisphere, 
and so I would love for the panelists to touch on that as well.
    With that I will turn to the ranking member Mr. Sires for 
his opening statement.
    Mr. Sires. Thank you, Mr. Chairman. Good afternoon. Thank 
you for our witnesses for being here today.
    Today we are examining Russia's engagement in Latin America 
and the Caribbean. Russia has been involved in Latin America 
since its support for Cuba and Nicaragua during the Cold War. 
The post-Cold War era saw a decline in Russian engagement, but 
as Russia-U.S. relations have become tenser in recent years, 
Putin is reviving these old ties to the Western Hemisphere. 
Russia has had a series of high profile state visits, proposed 
investment and most important an increase in military sales and 
military exercise in the region.
    According to General John F. Kelly, commander of the U.S. 
Southern Command, Russia has courted Cuba, Venezuela and 
Nicaragua to gain access to airbases and ports for resupply of 
Russian naval assets and strategic bombers operating in the 
Western Hemisphere. Putin's high level visit included travel to 
Cuba, Nicaragua, Argentina and Brazil, while the Russian prime 
minister has also made trips to Cuba and Nicaragua.
    Russia's interests in the region are to increase military 
cooperation, find new partners in the wake of U.S. and EU 
sanctions on Russia's economy, and try and promote the 
perception that they are a global power. Though these high 
level visits and proposed agreements are just for the Russian 
investment in the region, experts doubt Russia's ability to 
fulfill its economic commitment.
    What concerns me is Russia's continued arms sales to the 
region, especially on the heels of their support for ruthless 
dictators like Syria's Bashir al-Assad. Now we are seeing 
reports of the Cuban military on the ground in Syria assisting 
Russia in bombing innocent civilians and moderate anti-
government forces.
    For too many years the United States has focused on other 
parts of the world which has led to the neglect of our 
neighborhood. We must remain vigilant on what the long-term 
consequences might be and reaffirm our own commitment to the 
region. And I look forward to hearing from our panelists today. 
Thank you.
    Mr. Duncan. Wow. That was a short opening statement.
    Mr. Sires. I want to hear what they have got to say.
    Mr. Duncan. I appreciate the ranking member. I do as well. 
The bios are in your binders and so I won't do the bios. I will 
just start with recognizing each member will have 5 minutes. 
There is a light system, so when it gets close to running out 
of time you will have yellow and then red, and then if you 
could wrap it up when the red light comes on.
    So Douglas Farah, welcome back. You have been a great 
panelist in the past and a tremendous asset for me. I have 
learned a lot from you. I look forward to learning more from 
you today. You are recognized for 5 minutes.

    STATEMENT OF MR. DOUG FARAH, PRESIDENT, IBI CONSULTANTS

    Mr. Farah. Thank you, Chairman Duncan, I appreciate your 
kind words. And thank you, Ranking Member Sires and members of 
the committee for the opportunity to discuss Russia's----
    Mr. Duncan. Now if you could pull that microphone just a 
little closer. We are recording this and I want to make sure we 
get it all. So thank you.
    Mr. Farah. Is that better? Okay, thank you.
    Over the past 3 years, as you have noted, President Putin 
has made no secret of his desire to create a multipolar world 
where the United States is not dominant. Leaders of the U.S. 
defense and intelligence communities have responded to Russia's 
growing global assertiveness by singling out Russia as the 
primary military and strategic threat to the United States, 
particularly following Russia's annexation of the Crimea and 
other hostile activities. However, that threat assessment is 
seldom applied to Latin America. Yet, given its current 
positioning one could argue that Russia now has more influence 
in Latin America than ever before, even including the height of 
the Cold War.
    This will likely remain true despite the recent 
announcement of the normalization of diplomatic relations 
between Cuba and the United States. During most of the Cold 
War, the Soviet Union's only reliable ally in Latin America was 
Cuba, which in turn helped sponsor insurgent movements across 
the hemisphere. With the 1979 triumph of the Sandinista 
Revolution, the Kremlin gained a second state partner, but when 
the Berlin Wall fell 12 years later, Russia's regional 
influence ebbed to almost nothing.
    But since 2005, riding the wave of radical anti-U.S. 
populism sponsored by the late President Hugo Chavez of 
Venezuela, Russia is now firmly allied with the ranks of Latin 
America's populist, authoritarian and strongly anti-American 
leaders of the Bolivarian Alliance bloc known as ALBA. The 
Putin government is providing all the nations with weapons, 
police and military training and equipment, intelligence 
technology and training, nuclear technology, oil exploration 
equipment, financial assistance, and an influential friend in 
the United Nations Security Council and other international 
forums. With Russia's help the once shared hemispheric values 
of functioning and democratic systems are being replaced by a 
toxic mix of anti-democratic values, massive corruption, and a 
doctrine that draws on totalitarian models.
    The ALBA bloc embraces terrorism and terrorist groups such 
as the FARC in Colombia, Hezbollah, and the Spanish ETA and its 
military doctrine includes the justification of the use of 
weapons of mass destruction against the United States. In 
return, these allies are shielding Russia from international 
isolation, providing political and diplomatic support, and 
opening access to financial markets for sanctioned Russian 
banks and companies.
    Russia has also helped create an important regional media 
and social media network offering coordinated messages of 
unstinting support for Putin while casting the United States as 
the global aggressor. At the same time, ALBA countries are 
increasing Russia's military access to the hemisphere's ports 
and airspace and ultimately increasing Russia's sphere of 
influence in a region where the United States has seldom been 
so directly challenged.
    As noted in his July visit, President Putin made multiple 
gifts to his friends in the region, including the forgiveness 
of Cuban debt, declaring a strategic alliance with Argentina, 
and discussing nuclear energy agreements over dinner with 
Argentine President Cristina Fernandez de Kirchner. Putin also 
promised President Daniel Ortega of Nicaragua Russia's military 
protection for the canal which will likely never be completed, 
but would provide Russia with coveted deep sea seaports.
    It is worth noting that with the establishment of these 
strategic alliances, delegations of senior Russian military and 
foreign relations officials routinely travel through the 
region, including individuals under sanctions by the United 
States and the European Union. As noted, General Kelly is aware 
of this issue and has said that over the past three decades, 
``It has been over three decades since we last saw this type of 
high profile Russian presence in Latin America.'' He added that 
under Putin we have seen a clear return to the Cold War 
tactics.
    It is not that the nature of the Russian state is not 
understood. In March 2015, Director of National Intelligence 
James Clapper labeled Russia a ``threat actor'' and an example 
of a nation where ``the nexus among organized crime, state 
actors, and business blurs the distinction between state policy 
and private gain.''
    While one can observe the accuracy of this assessment of 
Russia's intentions and capability in many parts of the world, 
the growing mixture of Russian state presence, business 
ventures, soft power overtures, criminal activity and proxy 
activities in Latin America have gone largely unexamined. One 
repeat visitor to Latin America who provides a particularly 
useful lens to understand Russian activities in the region is 
General Valery Gerasimov, chief of staff of the Russian 
Federation and chief architect of the Gerasimov Doctrine. The 
influential doctrine posits that the rules of war have changed 
and that there is a ``blurring of the lines between war and 
peace.'' He advocates an asymmetrical series of actions in a 
permanently operating front through an entire territory of the 
enemy state.
    This is the prism through which the Russian's engagement in 
Latin America should be viewed. This is how and why Russia is 
engaging with select Latin America states. If you look closely 
at what they are doing they are focusing on four distinct 
areas. As noted, the sale of weapons; also police, military and 
intelligence assistance; access to financial institutions, 
which I detail in my written testimony at some length; and 
creating this counter-narrative which I talked about before 
where the United States is constantly portrayed as the 
aggressor and Russia as an alternative to that.
    In addition, IBI Consultants research has mapped out an 
interesting and opaque network of former senior military and 
KGB officials operating in Central America. This network 
deserves extensive more research. Russia's rise underscores, as 
Chairman Duncan said, the significant loss of Washington's 
ability to shape events in a region close to home and of 
significant strategic interest. While the U.S. position remains 
preeminent due to geographic proximity, cultural ties and trade 
ties, it is eroding more quickly than is often understood.
    In a time of resource scarcity, Russia has managed to 
leverage a small amount of resources into significant gain. The 
Russia agenda is aided and abetted by the ALBA bloc of nations 
in which there is no independent media and where the official 
media magnifies each statement and donation. The United States 
needs a much more visible return to the region to counter the 
perception and the reality that Russia is again a major 
strategic influence in the region. Thank you.
    [The prepared statement of Mr. Farah follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
                              ----------                              

    Mr. Duncan. Thank you. Before I recognize Dr. Rouvinski, I 
want to thank you and Dr. Urcuyo for traveling from Costa Rica 
and Colombia. You all have traveled quite a distance and we are 
glad we are able to make this hearing happen today. So thank 
you for that and on behalf of the committee. And Dr. Rouvinski, 
you are recognized for 5 minutes.

 STATEMENT OF VLADIMIR ROUVINSKI, PH.D., DIRECTOR OF THE CIES 
    INTERDISCIPLINARY RESEARCH CENTER, UNIVERSIDAD ICESI IN 
                            COLOMBIA

    Mr. Rouvinski. Thank you very much, Mr. Chairman, Mr. 
Ranking Member, and the other esteemed committee members, for 
the opportunity to speak today before the committee. Let me 
begin my testimony by sharing some general observations with 
regard to the Russian presence in Latin America, placing a 
particular emphasis on the evolution of Russian goals and 
objectives in the Western Hemisphere from the beginning of the 
1990s until now.
    Following the collapse of the Soviet Union, the political 
and military, economic and cultural contacts between Russia and 
Latin America declined sharply. But during the first decade of 
the 21st century, the situation changed dramatically. Already 
by 2008, Russian trade with Latin America had doubled in 
comparison with 1996. The same year, in a new vector, Russia 
declared its foreign policy to be a strategic partnership with 
Latin America. By 2015, Russia is maintaining diplomatic 
relations with all countries in the Western Hemisphere.
    With many of these countries the Russian Government signed 
a visa-free agreement allowing greater ease of travel between 
the regions. Taking into consideration the dynamic relations 
between Russia and Latin America, the political leaders in 
Russia began to talk about the Russian return to Latin America, 
referring to similarities between the current state of affairs 
and the policy promoted by the Soviet Union during the Cold 
War. However, characterizing the Russian presence in the 
Western Hemisphere as a ``return'' is inaccurate, since the 
Russian objectives only partially match those pursued by the 
Soviet Union.
    The current Russian strategy in the Western Hemisphere is 
to strengthen diplomatic relations with all Latin American 
countries while promoting economic cooperation and the arms 
trade, as well as military contact with some of the countries.
    Three groups of countries in the region can be 
distinguished in light of these efforts. The first group 
consists of Venezuela, Nicaragua, and Cuba, which have offered 
full support to Russia in the Ukrainian and Syrian crises. 
These countries benefit from Russian cooperation in the energy 
sector, have been recipient of Russian aid and are major buyer 
of Russian arms. Their political contacts with Moscow pave the 
way for military cooperation, thus explicitly challenging the 
United States in its ``near abroad.'' Russia also seems to 
expand the area of cooperation with this group by offering 
collaboration in sensitive issues such as drug trafficking and 
international organized crime.
    The second group includes Argentina, Mexico, and Brazil, 
the most economically important countries for the region, as 
well as several other Latin American nations. While the leaders 
of these countries may not fully collaborate with the Kremlin's 
international agenda, Russia still counts on their support in 
various multilateral arrangements including the United Nations, 
BRICS, and G-20.
    The third group of countries has strong ties with the 
United States and are unwilling to risk their relations with 
the West, but do not want to antagonize Russia either. An 
example is Colombia, which is maintaining its alliance with the 
United States while avoiding confrontation with Russia.
    The current Russian economic presence in the Western 
Hemisphere is very significant if comparing to the state of 
Russian commerce and trade with the region in the 1990s. 
However, the Russian economic engagement with Latin America is 
rather modest in comparison of some other extra-hemispheric 
actors, firstly, the People's Republic of China. Moreover, it 
is important to underline that Russia's capacity to further 
build up its presence in the Western Hemisphere is limited 
because of the low price of petroleum on international markets 
and the effect of economic sanctions imposed on the country by 
the United States and Europe.
    While the relations between Russian leaders and many of 
their Latin American counterparts can be characterized as 
strongly sympathetic, some of them lack a long-term commitment 
and may crumble under new leaders. In addition, in the 
challenging global geopolitical context, Russia has managed to 
maintain stable relation with all Latin American countries and 
therefore effectively undermined the efforts of the United 
States and its allies to isolate Moscow in order to pressure 
the government of Vladimir Putin to change its current policy 
in Europe.
    I would like to invite the United States House of 
Representatives to consider the following: The Russian re-
engagement with Latin America is evidence that the processes 
that are taking place in Latin America and the Caribbean are 
part of the changing global geopolitical landscape, and the 
answers to the challenges posed to the United States economic 
and security interests as a result of the Russian return to the 
region are to be considered from a global perspective.
    It is also important to open possibilities for a more 
comprehensive study of the Russian presence in Latin America by 
academic institutions and think-tanks in the United States. 
Whereas in recent years, research activities concerned, for 
example, with China's presence in the region have been booming, 
the Russian presence in Latin America has been mostly 
neglected. However, to better understand the Russian long-term 
interest in this part of the world, support for academic 
research is pivotal. Thank you for your time, and I look 
forward to the questions.
    [The prepared statement of Mr. Rouvinski follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Duncan. Thank you so much for your testimony.
    Dr. Urcuyo, is that microphone on?
    Mr. Urcuyo. Yes.
    Mr. Duncan. Okay. Make sure it is pointed right at your 
mouth too. That will be good.

  STATEMENT OF CONSTANTINO URCUYO, PH.D., ACADEMIC DIRECTOR, 
       CENTRO DE INVESTIGACION Y ADIESTRAMIENTO POLITICO 
                  ADMINISTRATIVO IN COSTA RICA

    Mr. Urcuyo. Okay. Thank you for the invitation. Russia has 
been present in the region in a new way since the last decade, 
although Moscow did have great activity during the Cold War. 
This inheritance will play a role in the current phase because 
thousands of Latin Americans were trained in the USSR. What is 
happening in what the Russians call their ``near abroad'' is 
interacting in real time with events in Latin America. Russia's 
diplomatic and military penetration in Latin America is a 
response to what it sees as an excessive presence of the U.S.A. 
and NATO in what it considers its influence area.
    Besides, Russia is nostalgic for having lost the Soviet 
empire and wants to show the world that it still a member of 
the major powers and capable of projecting power in its main 
adversary's backyard. On the other hand, Putin plays to his 
domestic audience. The resurgence of great Russian nationalism 
is fostered by the audacity of its leader. From the perspective 
of Russian Grand Strategy, forays into the region may not 
provide significant immediate returns in terms of the global 
scenario, but in the event of a more generalized future 
conflict they could enable Russia to use regional internal 
conflicts to its advantage.
    I will focus on Nicaragua due to Russia's importance to 
this country as well as the potential consequences of its 
activity for Costa Rica and the rest of Central America. Russia 
has a historical background of close relations with Managua. 
Currently, though, collaboration links have become closer. The 
Russian ministers of defense and foreign affairs visit 
frequently and a Russian anti-drug training center has opened 
near Managua.
    Russia has also shown interest in deploying satellite 
stations in Nicaragua for their global positioning system. 
Russia's focus on anti-drug cooperation is paradoxical if one 
considers that the drug-dealing routes that go through 
Nicaragua are not headed to Moscow. Some observers interpret it 
as a form of covert and strategic expansion. Russia's intention 
could be to obtain military bases or to trade political 
military assets as it did during the Cuban missile crisis.
    On the other hand, Nicaragua's ongoing maritime conflict 
with Colombia suggests that its rearmament is aimed more at the 
confrontation with this country than the fight against 
organized crime. Such remilitarization has raised concerns. 
There is great unease about its consequences for the regional 
balance of forces.
    The link between Russia and Nicaragua goes beyond military 
issues. It involves the diplomatic arena. Since 2008, Nicaragua 
recognized Abkhazia and South Ossetia in alignment with Russian 
diplomacy. The alignment was repeated when Nicaragua voted 
against the disapproval Crimea's annexation at the United 
Nations. The Russian military and diplomatic presence in 
Central America is a factor of regional instability. It is 
threatening for Costa Rica because the country does not have an 
army and has a border dispute with Nicaragua. If a conflict 
arises with Colombia, Bogota's level of armament and military 
training will escalate its dimensions, threatening peace 
throughout the Caribbean Basin.
    Conclusions and recommendations. Russia is trying to 
transfer its conflict with the U.S. to Latin America while 
profiting from weapons sales and challenging and provoking the 
U.S. Latin American countries must be aware that they cannot be 
trapped in a Russian conflict. Russia's regional old friends 
and new allies provide a haven for extra-hemispheric powers 
that seek to counterbalance the power of the U.S.A. by 
strengthening anti-imperialist nationalism.
    Russia's overtures revolve around the military and not 
around human development. That Russian activity raises 
apprehension in Washington is understandable. However, the 
answer cannot be unilateral. It must emerge from a dialogue 
with Latin American countries that considers all national 
interests and defines multilateral political partnerships.
    China's active economic cooperation frees some of Moscow's 
Latin American allies from economic pressures enabling Russian 
military and diplomatic penetration. The recent Chinese-Russian 
partnership could develop in the future through greater 
coordination in the hemisphere. There are speculations about 
the likely participation of Russia in the defense of the 
Nicaraguan Canal by the Chinese.
    Russian actions in Central America demand a more detailed 
accounting of its intense military cooperation with Nicaragua. 
Russia actually is trying to play a new role in Central America 
becoming an observer member of the Central American Integration 
System. Some Latin American countries have given a positive 
response to Vladimir Putin's initiatives, which shows that 
inter-American relations have shifted qualitatively. It is 
important, last, to develop a shared and strategic doctrine in 
the Americas adapted to the new architecture of the 
international system. Thank you.
    [The prepared statement of Mr. Urcuyo follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Duncan. Thank you so much.
    Dr. Negroponte, for 5 minutes.

 STATEMENT OF DIANA VILLIERS NEGROPONTE, PH.D., PUBLIC POLICY 
   SCHOLAR, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Ms. Negroponte. Thank you, Mr. Chairman and Ranking Member 
Sires, for the opportunity to present ideas this afternoon. 
Having listened to my three colleagues I am going to adapt 
somewhat my remarks this afternoon, but I have left with you a 
written testimony.
    I wish to look at the issue of Russian engagement in a 
somewhat distinct way and analyze why Russia has become more 
active in this hemisphere. I would argue there are three 
reasons. First, Russia needs markets, markets for its military 
equipment, its heavy industrial goods, and its growing IT 
sector. It was interesting when President Putin visited 
Nicaragua last year and it was at the last moment that he asked 
Nicaragua to sell fruits, vegetables, coffee, and meat given 
that Russia had banned the import of these important products 
from its natural and normal sources. Markets, I would argue, is 
one of the reasons why Russia has expanded its interest and its 
presence.
    Secondly, Russia needs friends. It needs friends at the 
U.N. General Assembly. It needs friends who will vote with it 
against the United States when we condemn the annexation of 
Korea and activities in Ukraine.
    The third reason for Russia is as the West has expanded its 
presence in the Baltics, in Ukraine and Poland, Russia has 
sought to meddle in what might be called by some ``our 
backyard.'' The response from both Nicaragua and Cuba has been 
interesting because of its distinctiveness. In the case of 
Nicaragua, as Dr. Urcuyo has pointed out, Daniel Ortega is 
playing high risks. He discusses the purchase of MiG-29s, eight 
of them, from Russia. He has developed a training center for 
military helicopters and there are no funds to pay for this.
    So there is a lot of rhetoric and hype, but the reality on 
the ground is that we are bumbling along. What is not bumbling 
along and what is of interest to the Central Americans is the 
development of the regional training center for anti-drug 
cooperation, and that is useful for the Hondurans, Salvadorans 
and Guatemalans. Were the United States to be more effective 
and more general in its anti-drug and its anti-narcotics 
program, those countries would have less reason to look toward 
Russia.
    In the case of Raul Castro, he is more cautious and more 
calculating than Daniel Ortega. Raul Castro has been blind-
sided by the Russians and previously the Soviet Union. You will 
recall 1962. And in 2008, a similar by Russia to place missile 
systems in Cuba was found out only later by Raul Castro much to 
his disapproval and irritation. Therefore, on the part of Raul 
Castro, there is skepticism and care in dealing with Russia. He 
is not going to be blind-sided again.
    What is the recommendation for us in the United States? We 
should pass the billion-dollar program to support Central 
America. The underlying problems of the region are poverty and 
unequal distribution of wealth. If we are not to show that we 
care about these underlying problems exacerbated further by the 
drug trade, exacerbated further by the presence of military 
weapons, then we should expect that others will fill that 
space. I sincerely hope that space is not filled by Russia. 
Thank you.
    [The prepared statement of Ms. Negroponte follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                          ----------                              

    Mr. Duncan. Well, thank all the panelists, great testimony. 
And now we will enter into the questioning phase and I will 
recognize myself for 5 minutes for questions.
    First one, how does Russia cultivate ties with Latin 
American countries? Mr. Farah.
    Mr. Farah. It cultivates them largely through, as was 
mentioned numerous times, weapons sales and a constant stream 
of high profile visitors going through to give the impression 
that they care a great deal. You see the defense minister, you 
see the foreign minister, you see the head of counternarcotics, 
you see the head of Parliament, all parading through there 
multiple times a year. So, and they also offer a lot of things 
that aren't delivered, as I think Dr. Negroponte said. They 
create the illusion of doing more than what they do. But they 
also have an echo chamber that they have created with the ALBA 
nations particularly where that is never reported, and you hear 
the constant great things that the Russians are doing.
    But I also think the more dangerous element, and I will be 
very brief on this, is the cultivation of much more significant 
intelligence ties and the providing of much more sophisticated 
intelligence apparatuses to the ALBA nations. You see it 
particularly in the newest member in El Salvador. You see a 
great deal of Russian equipment coming in. Nicaragua has it. 
Venezuela has it. Greatly increasing the power of the 
intelligence services which are geared entirely to monitoring 
their own people and suppressing dissent, and I think that is 
an incredibly dangerous but it is an enticing element.
    And the reason they have some success in the weapons and 
other things is they attach no conditions. So if you are going 
to give them a lot of toys and no conditions, they would prefer 
that to getting issues from the United States where they may 
have to account for how they use those things.
    Mr. Duncan. So in your opinion, Russia is getting something 
of value in return for their involvement? Are they getting what 
they want?
    Mr. Farah. I think that they wouldn't keep doing it if they 
weren't, sir. And I think that if you look at their, and I have 
a great deal in my testimony, particularly in the financial 
sector where they have made great inroads into the banking 
system to avoid international sanctions that the United States 
and the European Union have provided to them. I think that is 
very significant to their well-being. I think as others have 
mentioned, the ability to offload for some profit, aging arms 
systems that they can't really unload anyplace else but are 
useful in regions like Central America.
    And as several other panelists have mentioned, friendship. 
They have a group of people who will support them against any 
charges in the United Nations and elsewhere, and whom they will 
protect. When Venezuela is up on human rights issues who is 
going to veto that in the Security Council? It is going to be 
Russia. They have culled to this a mutually beneficial 
relationship, yes.
    Mr. Duncan. All right. Do you think Russia is seeking to 
provide political or military challenge to the United States in 
the Western Hemisphere? I will ask one of the others that. Dr. 
Rouvinski, do you think Russia is seeking to provide a 
political or military challenge to the United States in this 
hemisphere?
    Mr. Rouvinski. I think Russia has pursued different 
interests if we take into consideration the period before the 
war in Georgia in 2008 and after the war. I think before the 
war, Russian interests in Latin America were mostly linked with 
the possibility to promote the interests of their Russian 
private and state enterprises. And we have seen actually the 
efforts not only directed toward the arms sales, but also to 
promote the interest of the Russian energy companies and oil 
companies in Latin America.
    However, after the Georgian crisis of 2008, I think, 
following the support obtained by Russia from Nicaragua and 
Venezuela, Russia started to reevaluate its policy and 
objective in Latin America and started looking for more 
opportunities from that perspective. So I think definitely 
there are some signs that Russia is challenging the United 
States, building strong military ties with the group of 
countries that I was mentioning, Nicaragua, Venezuela and Cuba, 
though I would agree with Dr. Negroponte that Cuba seems to be 
much more cautious in dealing with Russia than Nicaragua was. 
Thank you.
    Mr. Duncan. And just to kind of summarize what you said if 
I heard you correctly, early on since 2008 with Georgia, Russia 
basically said you meddle in my neighborhood, I am going to 
come over and meddle in your neighborhood. And is that sort of 
a simplified summation of what you are saying?
    Mr. Rouvinski. I would agree with you. And also I think it 
is very important the recognition that what even by Nicaragua 
of the breakaway republics at present South Ossetia, because 
Russia was actually facing a great trouble in getting any 
recognition of those breakaway republics, and it seemed that 
Daniel Ortega offer of recognizing those republic came with no 
previous consultation. So I would agree it was a certain risk 
there on his behalf, but Nicaragua also quickly obtained some 
important benefits from Russia. Russia supplied some aid to 
Nicaragua in recognition of its support of the Russian state.
    Mr. Duncan. I agree. From what I have learned about 
Nicaragua, it concerns me probably more than Venezuela here in 
October 2015.
    Doug, we have seen all this naval activity and air space 
incursions, what do you think Russia is up to? Why do you think 
we are seeing them sail so close to our shores, come into the 
Gulf of Mexico, come close to our airspace both on the east 
coast and west coast? What do you think they are up to, in your 
opinion? Yes.
    Mr. Farah. I think they are very explicit if you read their 
own literature. And I was fortunate in a project I was doing to 
work with a Russian analyst who spoke both Russian and Spanish 
who was able to read a lot of their media and their papers, 
academic papers. They are very explicit, as I think Dr. 
Negroponte said, the idea they are very upset that we are, that 
they view the United States as in their backyard and they want 
to come in our backyard.
    And they have this doctrine, the Gerasimov Doctrine, of 
creating this constant state of conflict in every sphere, not 
just military, economic and counternarcotics, all of these 
things. And if you see where they move into the region it is to 
directly challenge what the United States does best and has 
been in the region for. That is why I think they put in the 
counternarcotics center.
    I disagree a little bit with Dr. Negroponte in that it is a 
benefit to a lot of countries. It is primarily--I have been to 
the center there and the training is not of high quality at all 
and everybody acknowledges that. But what they do do is select 
out from there their best elements and take them back to Moscow 
and train them and then send them back into the region gaining 
access to a great deal of intelligence and operational capacity 
in the region.
    So I think that there are multiple reasons that feed into 
their view that they need to be another superpower, regain 
their superpower status. And I think this doctrine, and it is 
fascinating because it is the basis of what Russia does all 
over the world and they are very explicit about it. This isn't 
some dark secret. They view conflict as a permanent state and 
we don't. We generally think if you overcome a certain conflict 
then you are in peace.
    And this doctrine explicitly says you are going to be in 
constant conflict in an asymmetrical way until you are able to 
overcome the enemy, and you see that in a lot of what they do 
in Latin America. It is not military, but it is certainly in 
this sphere of the social media and the other media they 
control and the training they are giving and the recruitment 
they are doing is a very different type of thing.
    Mr. Duncan. Well, my time is expired. The ranking member is 
younger than I am, but this really seems like a throwback to 
the Cold War and what we experienced when I was growing up with 
then, the Soviet Union and their incursion and probing and what 
not. So I will turn to the ranking member for 5 minutes.
    Mr. Sires. Chairman, you would be surprised how old I am. 
Dr. Negroponte, did I detect a sense that Russia is really more 
interested in markets than the military?
    Ms. Negroponte. Yes. Russia needs markets for its newly 
developed and sophisticated military equipment. It participates 
in military shows in Chile and in Peru in order to show what it 
has produced and for it not to be treated as some 1950 
industrial base. So show is important, sales are important, and 
as of now, income is even more important.
    Mr. Sires. Thank you. Dr. Urcuyo, did you say that you felt 
that Americas are excessively in South America and Central 
America in the Western Hemisphere in your comments? And that is 
why the Russians----
    Mr. Urcuyo. Excessively what? Excuse me.
    Mr. Sires. That is the word you used because I wrote it 
down.
    Mr. Urcuyo. No, but I didn't follow your question.
    Mr. Sires. That you felt that the Americas were excessively 
in the Western Hemisphere and that is why
    Russia----
    Mr. Urcuyo. No, no. Not at all. I think that the U.S. has 
been distracted in all the theaters of action and of war so you 
haven't been paying enough attention to what is happening in 
the Western Hemisphere. And suddenly you find out that there is 
vacuum, and that that vacuum has been occupied by China, 
economically speaking, and by Russia that tries to fill that 
vacuum. But I wouldn't be that dramatic.
    And it may be I didn't explain myself in my first 
presentation, but I think that there is space for the strategic 
expansion of Russia but not in absolute terms.
    Mr. Sires. Because that is how I feel. I feel we haven't 
focused enough on the Western Hemisphere over the years, so 
when you said that it sort of struck a key in my head here. 
There is an awful lot of talk about how the Russians were so 
magnanimous and forgave Cuba its debt of $20 billion or 
whatever it was. First of all, Cuba could have never paid that 
debt.
    Mr. Urcuyo. Yes.
    Mr. Sires. So, I mean, this magnanimous effort by Russia, 
it really is nothing more than reality that Cuba can't pay 
whatever they owe Russia. So I would love to read that in the 
press how they play that up as something so big.
    I have a comment here from SOUTHCOM Commander General 
Kelly. He has referred to the Russian's activity in Latin 
America as more of a nuisance as opposed to a threat, but has 
noted that the Russian presence underscores the importance of 
the United States remaining engaged with its partners in the 
region. Is it a nuisance or is it a threat? Dr. Negroponte?
    Ms. Negroponte. Ranking Member Sires, I believe that I 
support what General Kelly has said that it is a nuisance. 
There is so much hype, so much rhetoric, but when you come down 
to the real practical answer, who pays? Russia? Russian banks? 
They are not in a position to. Nicaragua? Nicaraguan banks? 
They are not in a position to. Cuba? The same. We have a term 
and a time of pragmatism in Cuba which does not permit Cuba to 
become a recipient of highly expensive equipment. So how did 
they pay for it?
    Those restructuring of loans were undertaken in order to 
reduce the interest payments and then at the same time lease 
Ilyushin and Tupolev aircraft so-called to develop the tourist 
trade. I can understand Russians want to leave Russia in 
January, February and March, but the cost of those aircraft to 
carry tourists has been the reduced interest payments on those 
Cold War debts.
    Mr. Sires. Anybody else like to do that, whether it was a 
threat or----
    Mr. Urcuyo. Well, I was--in my original testimony there is 
a quote from a member of the Russian Academy of Sciences trying 
to explain where they are in Latin America at this moment and 
he says we are playing on Washington nerves. So for me, they 
are playing deliberately to irritate the region with their 
presence, but I will say there is a natural dramatic threat in 
this moment. But of course they are placing their dates and 
their points in the region looking for the median or long term, 
but I don't think that the immediate moment, an immediate term, 
Russia is a threat to the United States because of its 
activities in the Western Hemisphere. Maybe in the future, yes, 
taking into account this actual situation.
    Mr. Rouvinski. Yes, I think we have to understand now what 
motivates Russia, do what Russia do with the military 
exercises, with the visits of the strategic bombers and with 
the navy.
    Latin America, in the recent years transformed to be a very 
useful instrument for the Russian propaganda inside the 
country. More Russians worry about Latin America, and the image 
of Latin America I think it is quite different from reality. I 
have been living in Latin America and I had a chance to travel 
extensively. But because of this constructed image, Russian 
authorities are capable of taking advantage of these actions to 
show actually the capacity that perhaps not mesh exactly what 
Russia can do in real terms as a threat to the United States, 
but to show actually the Russian authority, Russian army is 
capable to mitigate the United States in the near abroad. So I 
think there is a great value for the Russian propaganda machine 
attached to what Russia is doing.
    Mr. Sires. My time--sorry, Mr. Farah, but my time has just 
expired.
    Mr. Duncan. I want to thank the ranking member. Good line 
of questioning. I knew Cuba would be the thrust of your 
questioning and Russia's involvement there. I am going to go to 
the gentle lady who is now chair of the Middle East and North 
Africa Subcommittee and former chairman of the full committee, 
chairwoman of the full committee, Ms. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, Ranking 
Member. And thank you to my colleagues to my right. Thank you 
for bringing the spotlight on this expanding activities of 
Russia in our hemisphere. Putin's careful engagement seeks to 
create geopolitical allies in the region that support Russia's 
expansionist policies. It is not a coincidence that Argentina, 
Cuba, Nicaragua, Venezuela were some of the very few nations 
voting against the U.N. resolution declaring Crimea's 
independence referendum null and void.
    The Russian Federation's activities in Latin America have a 
clear intent, eroding U.S. influence in our region, increasing 
military cooperation with the adversaries of democracy, of 
transparency, of the rule of law in Latin America. By forming 
military alliances and increasing defense cooperation, Russia 
has effectively gained power projection of forces right in our 
backyard.
    According to the Russian defense minister, supersonic 
bombers are regularly patrolling the Caribbean Sea and the Gulf 
of Mexico to ``monitor foreign military powers, military 
activities and maritime communications.'' And have on occasion 
made landings in Venezuela just as they did precisely 2 years 
ago today.
    Earlier this year, a Russian intelligence vessel, as we 
know and you have talked about it, docked in Havana the day 
before the U.S.-Cuba talks were due to be held. And in 
testimony before the House Armed Services Committee, as Mr. 
Sires has pointed out, General John Kelly has asserted that the 
very same vessel has conducted operations in the Gulf of Mexico 
and the U.S. east coast. And we cannot forget that press 
reports from months ago stated that Russia intends to reopen 
the Lourdes spy facility in Cuba. We are hearing rumors that 
Cuban armed forces are helping to fight alongside Russian 
soldiers in Syria to come to the rescue of the murderous Assad 
regime.
    But this provocation from Russia to seek to spy on our 
interests, to undermine our national security does not stop in 
Cuba. This year, Ortega agreed to allow Russia to establish a 
satellite station in Nicaragua, and Nicaragua recently 
expressed an interest in acquiring top of the line MiG-29 
fighters to be used in counternarcotics operations, fueling 
fears that the Russians may have a continuous military 
footprint so close to our nation.
    Russia has invested heavily in the development of Latin 
America, from the development of a nuclear plant in Argentina, 
Gazprom's gas ventures in Bolivia, technology transferred to 
the Nicaraguan Canal to the construction of a weapon factory in 
Venezuela. And the economic engagement, sir, which I read in 
your written testimony, Mr. Farah, has pointed out, in the past 
has opened the door for Russian organized crime to engage in 
new markets.
    The Venezuelan regime, similarly, has a tradition of mixing 
business with criminal activities, and one example of this has 
been the Cartel de los Soles which had significant influence 
over senior officials in the Venezuelan regime. So I would ask 
you, sir, what impact, if any, has Russian organized crime had 
in the region, and are these groups working with organizations 
such as the Cartel de los Soles or perhaps the Mexican drug 
cartels? Thank you, Mr. Chairman.
    Mr. Duncan. Mr. Farah.
    Mr. Farah. Thank you. I think that it is clear from what 
the Colombian law enforcement and intelligence communities are 
seeing in the Central Americas that there is a great deal of 
unaccounted for Russian shipping activity. I think that we 
don't pay a great deal of attention to it because it comes off 
the Pacific Coast of Central America and then goes to Russia. 
It doesn't come to the United States, so it is not something 
that we monitor very closely. But there are several new tuna 
fishing fleets who declare their primary market for tuna is 
Russia, which is economically irrational, and it is unlikely 
that they will be inspected as they come and go.
    The Russians have very good access to Puerto Corinto into 
several ports. They just won the licitation for the port near 
San Miguel in El Salvador, where they are able to now come and 
go without much supervision. I think that the proximity of--the 
cocaine is produced largely the FARC and the FARC's ability to 
move the cocaine is largely dependent on the Cartel de los 
Soles. So if they are acquiring as they seem to be significant 
amounts of cocaine, it would have to be through that lineup. 
There is very little other way they could get significant 
amounts of cocaine out with impunity as the way they are doing.
    And my understanding of the operation is that it largely 
goes to Nicaragua. It goes out Puerto Corinto. They have now 
opened up Puerto Corsain in El Salvador which is a government-
controlled port, and they have free access there and they have 
declared it a military installation, although it is not a 
military installation. So no one can get in and out without 
permission of the President which is very difficult to acquire. 
So I think the contours are known, but I think that the details 
are something that require a lot more research.
    Ms. Ros-Lehtinen. Thank you very much, sir, and thank you, 
Mr. Chairman. Thank you to my colleagues.
    Mr. Duncan. You are welcome. The chair will now go to Mr. 
Yoho from Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate the panel 
being here. Let's see here. Dr. Urcuyo, will Russia have more 
presence and influence in Cuba, Central and South America with 
the Obama administration's attempt to relax sanctions in Cuba, 
in your opinion?
    Mr. Urcuyo. No, I don't think so. This has structural 
causes. First the inheritance of the past, for example, all the 
people that were trained by the USSR during the Central 
American wars. They are now in my--in the '60s and '50s. And, 
for example, we in Costa Rica have this guy that he went to the 
Frunze Military Academy, he graduated as a colonel, and he is 
part of the equivalent right now of the Communist Party of 
Costa Rica that has 70 years of existence.
    Mr. Yoho. Okay, let me broaden my question and this will be 
for everybody. Do you see Russia having more presence in Cuba 
and Central and South America with the lack of response to 
Russia's invasion and annexation of Crimea, with no credible 
response from the U.S., or the red lines drawn by our 
administration in Syria on the use of chemical weapons, with no 
response from us once we found out those happened, calls for 
regime change and we did not act, and the Iran nuclear deal 
where we operated from a position of weakness and really got 
not a whole lot out of that but Iran got a whole lot? What is 
your opinion on those negotiations of those things I just laid 
out, allowing Russia to expand more? And we will start with Dr. 
Farah if we can, or Dr. Negroponte, you are ready. Go ahead.
    Ms. Negroponte. Thank you very much, Congressman Yoho. I 
think we must make clear distinctions between Russian 
expansionism in Central Europe, in Georgia and in Syria with 
its activities within the Western Hemisphere. The Western 
Hemisphere has traditionally been an area protected by the 
United States. Our distraction----
    Mr. Yoho. That is going to lead to one of my other 
questions, so go ahead.
    Ms. Negroponte. Very good. Our distraction by events in the 
Middle East as serious as they are have taken us away from 
recognizing that the Western Hemisphere is our border. Travel 
to and from is plentiful and permanent. If we do not invest in 
interests in Central America, in developing our trade ties with 
South America, we should only expect that mischief makers will 
come to seek to take our place.
    Mr. Yoho. Dr. Rouvinski.
    Mr. Rouvinski. Thank you very much. I think in terms of 
Russian relations with Cuba it has been difficult for Russia to 
find a way to go back to the level of relationship in the 1990s 
when Cuba perceived Russia as a traitor, and abandoning of the 
Russian aid to Cuba actually caused a lot of trouble for the 
Russian political leaders. However, I think after the war with 
Georgia in 2008, Russia realized that because of the certain 
abandonment by the United States of Latin America it has a 
window of opportunities. And I think what they will do during 
that time and especially in the context of the crisis in 
Ukraine is actually a benefit on that possibilities that they 
have, and the forgiveness of the Cuban debt to Russia falls 
within this context.
    Mr. Yoho. Mr. Farah.
    Mr. Farah. I think one has to distinguish between what the 
Russians gain at a state level with the ALBA nations 
particularly and what the popular perception, what people 
actually believe on the ground. So I think that the perception 
that the United States is not engaged is very widespread.
    I think that while Russia is very engaged, and I think they 
are doing some dangerous things in the region, it is a very, I 
would say, shallow engagement. It is with the elites of regimes 
that--Ortega is very ill; he probably won't be around much 
longer. The Castro brothers can't live forever, one thing. 
Sanchez Ceren in El Salvador is very ill. And so you have a 
series of very personal relationships and past relationships 
that are allowing Russia to do a great deal now, but it is not 
that Russia is popular in the region or that people think that 
they would rather align on a macro level with Russia. It is a 
narrow and deep engagement with elites, and I think in very 
dangerous ways, but something that doesn't affect how people 
view the United States.
    Mr. Yoho. Do you see a need to reinstate something like the 
Monroe Doctrine, since John Kerry said it was gone, it is no 
longer there? And I think that is a misstep on our foreign 
policy that we are just saying we yield, basically.
    Mr. Chairman, I am over my time so I don't know how you 
want to handle that. Thank you.
    Mr. Duncan. I thank the gentleman. I will now go to Mr. 
Byrne from Alabama.
    Mr. Byrne. Thank you, Mr. Chairman, and I appreciate being 
included in this very important hearing. I am a member of the 
House Armed Services Committee, not a member of this committee.
    Dr. Rouvinski, I have just come back from your country, 
Colombia, had a 4-day trip with Congressman Gallego, and we 
learned that within the last year or so, Russian military 
aircraft had transited Colombian airspace without Colombian 
permission. First, is that your understanding as well, and if 
so who are the Russian sending a message to, the United States 
or Colombia, and what is that message?
    Mr. Rouvinski. Yes, in fact, Russian strategic bombers, Tu-
160, penetrated the Colombian airspace twice without the 
permission of the Colombian authorities. And the explanation 
that was given by Russia that the pilot did it by mistake, but 
they did it twice, and they flew from Venezuela to Nicaragua 
and from Nicaragua to Venezuela.
    So in Colombia it was a very difficult situation for the 
Colombian Government to deal with it because it was widely 
perceived by the Colombian public that it was a message to 
support the Nicaragua stance in the territorial dispute between 
Colombia and Nicaragua over the San Andres Island in the 
Caribbean Sea. The Colombian Parliament had the special 
hearings on that respect, but finally they accepted the apology 
of the Russian side because I think Russians were not 
interested in jeopardizing their relation with Colombia. 
Colombia is very important for Russia because it does not 
belong to those groups of the country that are especially close 
with Russia.
    So for Russia it is really a possibility to demonstrate 
that Russia can keep its diplomatic relationship not only with 
those country that ideologically are very close to Vladimir 
Putin, but also with Colombia. For example, this year Russian 
Minister of Foreign Affairs Lavrov paid a visit to Colombia to 
celebrate 18th anniversary of the establishment of the 
diplomatic relation between Colombia and Russia, and he met 
with President Santos and the minister of foreign affairs. So I 
think it is the explanation.
    Mr. Byrne. Thank you. Dr. Negroponte, I have a question for 
you about American relations with Cuba. I would say our country 
has made, or the President has made some unilateral efforts to 
upgrade the relationship between our two countries. There is a 
lot of suggestions that Congress should lift the trade embargo. 
We wonder about your view on that.
    Should we request, or demand, before we lift the trade 
embargo that we have a clear understanding and agreement and 
forceful agreement with Cuba that they will not be a staging 
ground for foreign military actions or foreign intelligence 
actions against our country, and we will not be a staging 
ground against them? Do you think that is something we should 
require before we lift the trade embargo?
    Ms. Negroponte. Thank you, Congressman. I do not see it as 
a necessary part of the very tough negotiations that are taking 
place and will take place within this distinguished body over 
the lifting of the U.S. trade embargo. I think within the trade 
embargo, trade rules themselves, we have a number of very 
difficult issues and I am not sure that introducing the 
military element is necessarily going to aid either one side or 
the other.
    However, I would note Foreign Minister Lavrov made it very 
clear in July this year that Russia welcomes the normalization 
of relations with the United States, that is Cuba and the 
United States, on two conditions. One is the sovereignty of 
Cuba, namely Guantanamo; and secondly is the lifting of the 
embargo. My reading of the discussions between the 
administration and the Cuban Government is that Guantanamo is 
not up for negotiation, and the issue of the embargo is an 
issue which this illustrious body will discuss, not Russia.
    So that leaves Foreign Minister Lavrov and his boss to 
determine whether they are going to exert pressure on Raul 
Castro to concede, or whether Raul Castro has the ability to 
say thanks, Mr. Putin, this is an issue between Cuba and the 
United States and within the United States and the Congress of 
the United States, and would you please butt out. Thank you.
    Mr. Byrne. Mr. Farah, do you want to take a quick stab at 
that?
    Mr. Farah. It is not honestly my area of expertise, 
Congressman. I don't think it would be harmful to include the 
conditions as you laid them out of not being a foreign 
intelligence staging area and we agree not to do it to them. I 
don't think it is realistic to expect that any country in the 
region including that one would actually agree to that, so I am 
not sure that introducing that would bring--I don't find it 
unreasonable, but I don't think it is probably very realistic.
    Mr. Byrne. Thank you. Appreciate it, Mr. Chairman.
    Mr. Duncan. I want to thank the gentleman. Not a member of 
the subcommittee, but a valuable member of our full committee 
and I appreciate his input.
    And I am not a conspiracy theorist by nature, but I am a 
conspiracy theorist by nature. If you look at Google Earth and 
you go to the northeast corner of Nicaragua near the border of 
Costa Rica you are going to see an airbase that--airfield, 
rather--that is long enough to handle pretty much anything. It 
is in the middle of the jungle. It is near Lagoon, Ebo, and 
Spout Morris, close to the Costa Rican border, close to the 
Atlantic Ocean.
    Why it was built, what it is there for, were the Russians 
involved, I was told they were. But anyway it is interesting to 
start thinking about the Russian presence in this hemisphere 
and delve into the questions that we have had today. The 
biggest question is why, why they are here, what can we do 
about it?
    I think because there has been a vacuum of American 
engagement in this hemisphere over the past couple of decades, 
if not longer, that it provides an opportunity for Russia and 
China and others to come here. I think that is part of what we 
have been trying to investigate. I think if America gets more 
engaged with our friends and allies and neighbors here in the 
hemisphere we will all be better off and we will be able to 
thwart some of these incursions by Russia and others.
    I don't have any other questions. I think the ranking 
member wanted to ask one more, so I am going to yield to him 
for as long as he needs. Thanks.
    Mr. Sires. Yes. I, just out of curiosity, just want to hear 
what you have to say. There are 30,000 Cubans in Venezuela. We 
have a government in Venezuela that is teetering on collapse. 
There is a lot of Russian effort to befriend Venezuela. Do you 
think that Russia would dare try to prop up another dictator in 
this region if the government collapses? I mean, they are 
building airfields here and there. I was just wondering, since 
I didn't get a chance to get your response before.
    Mr. Farah. Well, I think that the short answer, I think, is 
probably not in our hemisphere. I think that the Venezuelan 
regime has survived because of the Cuban intelligence apparatus 
has allowed it to maintain control in ways that it never would 
have been capable of on its own. I think that just as important 
to the regime survival has been China's willingness to buy 
everything with cash up front as they need cash, so that now 
half of Venezuelan's oil exports don't generate them any cash 
because they have already been paid for. So I think that there 
are a series of anomalous events that have allowed this regime 
to last as long as it can.
    I would sincerely doubt because there is no other strategic 
interest for Russia in the region, and I would assume but you 
never know that that would be a bridge too far for them. And I 
think that that would force the United States to react in ways 
that they would have very difficult times maintaining supply 
lines and doing all the things that they would need to do, and 
I think that it would generate an enormous backlash in the 
region.
    But I think that the presence of the Cubans and the 
Russians' willingness to engage with Venezuela and help them 
financially and with intelligence and with weapons is an 
important part of their ability to stay in power as long as 
they have.
    Mr. Rouvinski. I think in terms of the possibility that 
Russians have an increased presence in Venezuela it is highly 
unlikely. We have seen during several crises in Venezuela 
that----
    Mr. Sires. Is that because Cuba has 30,000 people in 
Venezuela? I mean, they are basically doing the work for the 
Russians.
    Mr. Rouvinski. Yes, I think the Russian presence in 
Venezuela has been because of the first place has stronger 
personal and sympathies and relations between some strong men 
in Russia and Venezuela, but I think there also have been some 
concern about Russian involvement there. I would agree with Mr. 
Farah that Venezuela is surviving, the Maduro regime is 
surviving because of the Chinese buying everything and because 
of the intelligence provided by Cuba. But Russian involvement, 
I really don't see that there will be more in recent terms.
    Mr. Sires. Dr. Urcuyo.
    Mr. Urcuyo. I agree with my colleagues in the sense that I 
think what props up Venezuela is the Chinese economic support 
and also the Cuban intelligence through the medics and doctors 
that are helping in the Misiones in Venezuela. But I don't 
think that the Russians will go boots on the ground in 
Venezuela or in any other country in Latin America.
    Mr. Sires. How about you, Dr. Negroponte?
    Ms. Negroponte. With the price of oil at under $50 a 
barrel, Russia's interest in Venezuela is minimal.
    Mr. Sires. Thanks. Thank you, Mr. Chairman.
    Mr. Duncan. I want to thank the ranking member and I want 
to thank the members of the committee. And I thought this was a 
good hearing. I want to thank the panelists. I thought some 
very valuable insight to some of the issues well beyond what I 
expected. I want to thank the witnesses who traveled so far for 
making the time to come and inform Members of Congress so that 
we can make informed decisions going forward on good 
information.
    We are going to keep the record open for 5 days. If members 
have additional questions, we will submit those to you. And 
with there being no further business for the committee, we will 
stand adjourned.
    [Whereupon, at 3:10 p.m., the subcommittee adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
